Case 18-3338, Document 155, 09/18/2020, 2933957, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
18th day of September, two thousand twenty.

United States of America,
Appellee,
v.

ORDER

Thomas Hoey, Jr.,

Docket No: 18-3338

Defendant - Appellant,
Nicole Zobkiw, AKA Sealed Defendant 1, Barry Balaban, AKA
Sealed Defendant 1, Alejandro Noreiga,
Defendants.

Appellant, Thomas Hoey, Jr., filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

MANDATE
18-3338
United States v. Zobkiw (Hoey)

UNITED STATES COURT OF APPEALS
* FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT.
CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS
PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE
(WITH THE NOTATION "SUMMARY ORDER"). A PARTY CITING A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY
COUNSEL.
At a stated term of the United States Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the
City of New York, on the 18th day of March, two thousand twenty.
PRESENT: PIERRE N. LEVAL,
PETER W. HALL,
GERARD E. LYNCH,
Circuit Judges.

United States of America,
Appellee,
v.
Thomas Hoey, Jr.,
Defendant-Appellant,

MANDATE ISSUED ON 09/25/2020

18-3338

Nicole Zobkiw, AKA Sealed Defendant 1, Barry
Balaban, AKA Sealed Defendant 1, Alejandro
Noreiga,
Defendants.

For Appellant:

Bruce R. Bryan, Syracuse, New York.

For Appellee:

Ian McGinley (Michael D. Maimin on the
brief) for Geoffrey S. Berman, United States
Attorney for the Southern District of New
York, New York, New York.

Appeal from a judgment of the United States District Court for the Southern
District of New York (Castel, /.).
UPON

DUE

CONSIDERATION,

IT

IS

HEREBY

ORDERED,

ADJUDGED, AND DECREED that the judgment of the district court is
AFFIRMED.
Thomas Hoey, Jr. appeals from a judgment of the United States District
Court for the Southern District of New York entered on October 25, 2018,
sentencing him to a term of 141 months' imprisonment and three years of
supervised release. We assume the parties' familiarity with the underlying facts,
the record of prior proceedings, and the arguments on appeal, which we reference
only as necessary to explain our decision to affirm.

The Clerk of Court is respectfully requested to amend the caption as stated above.

I.
Hoey was convicted, following a guilty plea, of conspiracy to distribute and
possess with intent to distribute cocaine in violation of 18 U.S.C. § 371, conspiracy
to suborn perjury in violation of 18 U.S.C. § 1622, and obstruction of justice in
violation of 18 U.S.C. § 1503. The district court initially sentenced Hoey to a
within-Guidelines sentence of 151 months' imprisonment and three years of
supervised release. The court also imposed a $250,000 fine which was later
vacated on appeal and not reimposed. Before his initial federal sentencing, Hoey
had been convicted for an unrelated matter in New York state court. That
conviction increased the criminal history points used in calculating his federal
Guidelines range. Following his sentencing on the federal charges here, the New
York state conviction was vacated, and Hoey was thus entitled to resentencing. At
resentencing, after recalculating the Guidelines range based on a lowei criminal
history score, the district court imposed an above-Guidelines sentence of 141
months' imprisonment and three years of supervised release. Hoey now appeals,
arguing that his new sentence is both procedurally and substantively
unreasonable.

II.
We review sentences for reasonableness, which amounts to a review for
abuse of discretion. See United States v. Cavera, 550 F.3d 180, 187 (2d Cir. 2008) ten
banc).

"Pi. sentence is procedurally unreasonable if the district couit fails to

calculate (or improperly calculates) the Sentencing Guidelines range, treats the
Sentencing Guidelines as mandatory, fails to consider the § 3553(a) factors, selects
a sentence based on clearly erroneous facts, or fails to adequately explain the
chosen sentence." United States v. Singh, 877 F.3d 107,115 (2d Cir. 2017) (citation
omitted).
Hoey contends that his sentence is procedurally unreasonable for two main
reasons: (1) the district court insufficiently explained its decision to impose an
above-Guidelines sentence at resentencing, especially given that court's
imposition of an initial sentence within the advisory Guidelines range, and (2) the
district court improperly calculated the Guidelines range by refusing to group the
perjury and obstruction of justice counts together.

Hoey, however, did not

challenge the procedural reasonableness of his sentence before the district court,
and defense counsel's general statements that she was "comfortable" with a
calculation different than the one ultimately adopted and "mindful" of a plea

A- H

agreement containing another calculation were insufficient to preserve an
objection for appellate review. App

. at 508. We thus review Hoey's challenges of

See United States v. McCrimon, 788
proc edural unreasonableness for plain error.
p 3d 75,78 (2d Cir. 2015); United States v. Villafuerte, 502 F.3d 204,208 (2d Cir. 2007).
To

the

demonstrate plain error, Hoey must show that "(1) there is an error; (2)

error is clear or obvious, rather than subject to reasonable dispute; (3) the error

affected the appellant's substantial rights, which in the ordinary case means it
affected the outcome of the district court proceedings; and (4) the error seriously
affects the fairness, integrity or public reputation of judicial proceedings. " United
States v. Marcus, 560 U.S. 258, 262 (2010) (internal quotation marks and alterations
omitted).

While we have said that "the plain error doctrine should not be applied

stringently in the sentencing context," United States v. Gamez, 577 F.3d 394,397 (2d
error standard.
Cir. 2009), Hoey's arguments fail even under a lowered plain
Hoey's first argument, that the district court did not sufficiently explain its
decision to
record.

diverge from the advisory Guidelines range, is not supported by the

Not only did the district court deliver a long explanation at the

resentencing hearing for why it was imposing an above-Guidelines sentence, but
the court also issued a six-and-a-half-page Written Statement of Reasons

explaining that the above-Guidelines sentence "more accurately accounts for the
extreme callousness of Hoey's actions," App. at 556, and outlining specific reasons
for imposing that sentence. Nor is Hoey's argument aided by the fact that many
of the same circumstances that existed at the time of Hoey's original sentencing
and which resulted in a sentence within the then-applicable Guidelines—existed
at the time of his resentencing. Hoey offers no reason why his new sentence must
fall within the lower Guidelines range simply because his prior one fell within the
higher range. Contrary to his assertions, we find it eminently reasonable that the
district court could find a 151-month sentence appropriate under the
circumstances at Hoey's initial sentencing and a 141-month sentence appropriate
under the circumstances at Hoey's resentencing, notwithstanding the fact that one
fell inside of the Guidelines range and one did not.
In calculating Hoey's Guideline range, the district court grouped the perjury
and underlying drag count together under § 3D1.2(c), as provided for under
U.S.S.G. § 3C11 Application Note 8, and applied Application Note 5 to U.S.S.G. §
3D1.2 to limit the grouping to one count of obstructive conduct with one count of
the underlying offense. Application Note 5 explains that, for the purposes of
grouping under subsection (c):

ft-4

Sometimes there may be several counts, each of which could be
treated as an aggravating factor to another more serious count, but
the guideline for the more serious count provides an adjustment for
only one occurrence of that factor. In such cases, only the count
representing the most serious of those factors is to be grouped with
the other count.
On that basis, the district court grouped Hoey's perjury and drug counts together
and treated the obstruction of justice count separately. The result was a slightly
higher offense level than if one of Hoey's preferred approaches had been adopted.
Hoey contends that the district court erred by not grouping his perjury and
obstruction counts together. He argues that the district court should have grouped
those counts together pursuant to U.S.S.G. § 3D1.2(b) because the counts were part
of a common scheme or plan and victimize the same societal interest. He argues,
alternatively, that they should be grouped together pursuant to U.S.S.G. § 3D1.2(c)
because each of the perjury and obstruction counts would qualify as an adjustment
to his drug count.
How multiple obstruction counts should be grouped is an open question in
this Circuit. In United States v. Jones, 716 F.3d 851, 859 (4th Cir. 2013), the Fourth
Circuit followed the approach complained of here, explaining that "the proper
way to group multiple obstruction of justice convictions under the Sentencing
Guidelines" is to group only the "more serious" conviction for obstructive conduct

H-7

with the underlying offense. While we see the logic in that approach, we need not
decide whether that is the correct method because, given the lack of contrary case
law from the Supreme Court or this Court, the district court did not plainly err in
its Guidelines calculation. See United States v. Whab, 355 F.3d 155,158 (2d Cir. 2004)
("For an error to be plain, it must, at a minimum, be clear under current law. We
typically will not find such error where the operative legal question is unsettled,
including where there is no binding precedent from the Supreme Court or this
Court.") (internal quotation marks omitted). Hoey's challenge to the procedural
reasonableness of his sentence thus fails.
III.
Hoey also challenges the substantive reasonableness of his 141-month term
of imprisonment. "Upon review for substantive unreasonableness, we take into
account the totality of the circumstances, giving due deference to the sentencing
judge's exercise of discretion, and bearing in mind the institutional advantages of
district courts." United States v. Brown,. 843 F.3d 74, 80 (2d Cir. 2016) (citations and
quotation marks omitted). In giving this due deference, we "provide relief only in
the proverbial 'rare case.'" United States v. Bonilla, 618 F.3d 102,109 (2d Cir. 2010)
(quoting United States v. Rigas, 583 F.3d 108, 123 (2d Cir. 2009)). "A sentencing

A-8

judge has very wide latitude to decide the proper degree of punishment for an
individual offender and a particular crime/' and "[w]e will... set aside a district
court's substantive determination only in exceptional cases where the trial court's
decision cannot be located within the range of permissible decisions." Cavera, 550
F.3d at 188,189 (internal quotation marks and citation omitted).
Hoey's chief complaint is that the district court did not . give appropriate
weight to mitigating factors, such as Hoey's post-incarceration rehabilitation
efforts. But the district court was not required to weigh these factors in precisely
the way Hoey would have liked and, in reviewing the sentence imposed by the
district court, "we do not consider what weight we would ourselves have given a
particular factor." Id. at 191. Rather we "consider whether a factor relied on by a
sentencing court can bear the weight assigned to it" under the totality of the
circumstances in a case. Id.
Here the record of sentencing proceedings shows that the district court was
careful to consider the factors cited by Hoey as mitigation in the context of the case
as a whole. For example, the district court explained that Hoey's "steps toward
rehabilitation are commendable but they are not extraordinary." App. at 552. On
this record, we cannot say that the district court improperly weighed the factors

presented to it for consideration,

Nor do we think a 141-month term of

imprisonment for distributing drugs to a woman who died after consuming them
and then attempting to impede an investigation into that conduct is so high that it
"cannot be located within the range of permissible decisions." Cavern, 550 F.3d at
189. We therefore hold that the district court did not abuse its discretion in
imposing'the sentence it did.
***

We have considered Hoey's remaining arguments and find them to be
without merit. We hereby AFFIRM the judgment of the district court.

FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk of Court

A True Copy
Catherine O’Hagan V^ggsjj^rk
United States Coufr^rA^ ealsASecond Circuit
NO

!

Case l:ll-cr-00337-PKC Document281 Filed 10/25/18 Page lot8
AO 245B (Rev. 02/18)

i

Judgment in a Criminal Case
Sheet 1

I

United States District Court
Southern District of New York
)
)
)
)
)

UNITED STATES OF AMERICA
V.

THOMAS HOEY, JR.

JUDGMENT IN A CRIMINAL CASE
I

Case Number: 1: S6 11 CR 00337-003 (PKC)

)

USM Number: 92147-054

)
)
)

THE DEFENDANT:

I

Joanna Hendon, Esq. (AUSA, Ian McGinley)
Defendant’s Attorney

One, Two and Three of the S 6 Indictment

Bl pleaded guilty to count(s)

□ pleaded nolo contendere to count(s)
which was accepted by the court
□ was found guilty on count(s)
after a plea of not guilty.

__

The defendant is adjudicated guilty of these offenses:
Title & Section

Count

Offense Ended

Nature of Offense

" '' V=_-J
18 USC 371

Conspiracy & Possess w/lntent to Distribute Cocaine

1

12/31/2010

HHSi!
8

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.
□ The defendant has been found not guilty on count(s)
El Count(s)

underlying indictments

□ is

of this judgment. The sentence is imposed pursuant to

____
□ are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.
10/24/2018
Date oflmposition of Judgment

Signatijj^df Judge

Hon. P. Kevin Castel, U.S.D.J.
Name aud Title of Judge

Date

/

t

Case l:ll-cr-00337-PKC Document 281 Filed 10/25/18 Page 2 of 8
f

AO 24SB (Rev. 02/18) Judgment in a Criminal Case
Sheet 1A
Judgment—Page

2

of

8

DEFENDANT: THOMAS HOEY, JR.
CASE NUMBER: 1: S6 11 CR 00337-003 (PKC)

ADDITIONAL COUNTS OF CONVICTION
Offense Ended

Count

Title & Section

Nature of Offense

18 USC 1622

Conspiring to Suborn Perjury

5/31/2011

2

18 USC 1503 & 2

Obstruction of Justice

5/31/2011

3

WfflmmffimmmmMmfflfflffl:. mmrnmm'

I

i

i

HHHHHmHBHHBHBHu;
HSSHraHHHHHHHHHI”^*111
^

■*

*•'

mma

I
i
i

Case l:ll-cr-00337-PKC Document 281 Filed 10/25/18 Page 3 of 8

s
is

!

AO 245B (Rev. 02/18) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

3

of

8
I

DEFENDANT: THOMAS HOEY, JR.

CASE NUMBER: 1: S6 11 CR 00337-003 (PKC)

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:
60 months on Count 1; 60 months on Count 2; 21 months on Count 3, all to run consecutively for a total of 141 months.
(Written Statement of Reasons for Sentence is attached.)

i

2

EZl The court makes the following recommendations to die Bureau of Prisons:
(1) defendant be imprisoned as close as possible to New York City to facilitate family visits;
(2) defendant be evaluated for appropriate drug and alcohol treatment.

I
2I The defendant is remanded to the custody of the United States Marshal.

i

□ The defendant shall surrender to the United States Marshal for this district:
□ at

□ a.m.

□ p.m.

on

□ as notified by the United States Marshal.

f

□ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

I

I

□ before 2 p.m. on

16

□ as notified by the United States Marshal.

I

□ as notified by the Probation or Pretrial Services Office.

I
RETURN

I

I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.
i!

UNITED STATES MARSHAL

I

By
DEPUTY UNITED STATES MARSHAL

I
I

I

Case l:ll-cr-00337-PKC Document 281 Filed 10/25/18 Page 4 of 8
AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page

4

of

8

DEFENDANT: THOMAS HOEY, JR.
CASE NUMBER: 1: S6 11 CR 00337-003 (PKC)

S

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:

3 years.
i

*
I

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.

7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
□ The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse, (check ifapplicable)
□ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution, (check ifapplicable)
[yf You must cooperate in the collection of DNA as directed by the probation officer, (check ifapplicable)
□ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense, (check ifapplicable)
□ You must participate in an approved program for domestic violence, (check ifapplicable)

I

I
I!

I
I

i

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

is
ii
8

I

1

I8
s6

Case l:ll-cr-00337-PKC Document 281 Filed 10/25/18 Page 5 of 8
AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page

¥

of

8

DEFENDANT: THOMAS HOEY, JR.
CASE NUMBER: 1: S6 11 CR 00337-003 (PKC)

I

i

STANDARD CONDITIONS OF SUPERVISION
t

As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the rislc
You must follow the instructions of the probation officer related to the conditions of supervision.

!

I
I
S.
I

l6

I
E

S

i

il

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

H

I

t

f

Case l:ll-cr-00337-PKC Document 281 Filed 10/25/18 Page 6 of 8
AO 245B(Rev. 02/18) Judgment in a Criminal Case
Sheet 3D — Supervised Release
Judgment—Page

6

of

8

DEFENDANT: THOMAS HOEY, JR.

CASE NUMBER: 1: S611 CR 00337-003 (PKC)

SPECIAL CONDITIONS OF SUPERVISION
The defendant will participate in a program approved by the United States Probation Office for substance abuse, which
program may include testing to determine whether the defendant has reverted to the use of drugs or alcohol. The Court
authorizes the release of available drug treatment evaluations and reports to the substance abuse treatment provider, as
approved by the probation officer. The defendant will be required to contribute to the costs of services rendered
(co-payment) in an amount to be determined by the probation officer, based on ability to pay or availability of third-party
payment.
The defendant shall submit his person, residence, place of business, vehicle, or any other premises, including any
electronic devices under his control to a search on the basis that the probation officer has reasonable belief that
contraband or evidence of a violation of the conditions of release may be found. The search must be conducted at a
reasonable time and in reasonable manner. Failure to submit to a search may be grounds for revocation. The defendant
shall inform any other residents that the premises may be subject to search pursuant to this condition.
The defendant will participate in an alcohol aftercare treatment program under a co-payment plan, which may include
testing via breathalyzer at the direction and discretion of the probation officer.
The defendant is to report to the nearest Probation Office within 72 hours of release from custody.
The defendant may be supervised by the district of his residence.

jouo

'9661 ‘£Z IPdV sjqpq jnq >661 ‘£1 Jaqtnajdas
paijnmnoo sasuajjo joj g[ opij,jo VEIIPTO ‘VOlI ‘011 ‘V60I siajdeqQ japun pannbajojb sasso[jo junoins jejojaqj ioj sSinpiny^
'ZZ-H I'ON‘IW‘5103JO W 3uPlOi»BJx jo suiijoja joj oopsnf *
:sMopoj sb payipotn si uoijnjysai □
•uoijnjijsai □

any □

auij

□

aqj joj juauiaimbai jsajajm aqj □

aqj joj paAiBM si juauiaiinbai jsajajm aqj □

:jEqj parapio si ji puB jsaiajui XEd oj Ajqiqs aqj aABq jou saop jirepnajap aqj jnqj pauiuuajap jmoo aqx

□

'(3)ZI9£ § 'D’S'fl 81 °1 JUBnsmd ‘jpuyap pus Xotranbuqap joj saijpjuad oj
joafqns aq Aeui 9 jaaqg no suoydo juaui/CBd aqj jo py ‘(})Zl9t § ’O'STl 81 °i JiiBnsjnd ‘juauiSpnf aqjjo ajBp oqj jays Asp qjuaayy
aqj ajojaq yty in pifid si auy jo uoijttjysaj aqj ssajun ‘00S‘Z$ u^qj ojoui J° 3lI9 B pne uoijnjijsai uo jsajaju; Asd jsnra juspuajap aqx

□

$ juamaajgB Eajd o; juBnsjnd paiapio junouiB uoijnjpsay.

□

|
•i

$

000

I

*masBBBm :mssssBsmm

fsisii*
Pills

lilliL

rVi*:*;£;>55
u&dtii‘a$3

sfe.'lk

r:
A

■'■

STVXOX

$

000

iiiSiiilllifiliiiii

?

1,».£

-

sBmaai

•n/r’.Ty

is

S'kSStffiiiilSI 1

iswi
mmmrnsmmmmmwmmmm
wmm wwmmmmmmmmrnMmimmmsm

a:

aSujuaajay jo Ajuouy

@SPpiSispiiiffi
IMiMS&SiiVfc&Ssii_____
.'i L\i^fr6w*C-r;.tr»*fi5>5£:5k-fe;2V»ii-^S,>i«.vd«3y
**ssoi JBJOX
pajapjQ uoynjijsa^

aaABjjo auiBfsj

•piBd si sajBJS pajitqq aqj ajojaq

•Mopq pajsq junoure aqj ui saaXBd guiMoyoj aqj oj (uoijnjijsai Xjiunraraoo Suipnpui) uoijnjpsaj aqein jsran juspuajap aqx □

pajajua aq yiM (osnov)ssoQ puiuiuj v ui juaiuSpnf papusiuy uy •

•uoijBuiuuajap qons jays
[pun pauajap si uoijnjpsaj jo uoijBuiuuajap aqx □

$

$

$
uoynjysan

aw!X

^uauissassy yxAf

oo’ooe $

STVXOJL

juauissassy

•9 jaaqs uo sjuauiXBdjo apjpaqas aqj japun saijjBuad /CiBjauoui (Baiinua jbjoj aqj And jsnxu jnBpuajap aqx

SaiXTYNSJ AHVXaNOW TVNmiHD
(o»d) eoo-zeeooyo u 9S •> ^aewoN asvo
■yp ‘A30H SV1AIOH1 XNVQNHdaa
8

JO

l

sSbj—jirauiSpnf

S3i)]Bn9 j jCib)9doja[ Ieuiuiuo — g jaaqs
asB3 iEnraip3 a oj juauiSpnf (8I/Z0 '/13a) SSt'Z OV

8 io 1 a6ed 8T/SZ/0I P9|!d 183 juaiunooa 3»d-Z££00-J3-Ti:T asao
!

Case l:ll-cr-00337-PKC Document 281 Filed 10/25/18 Page 8 of 8
A0 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 6 — Schedule of Payments
Judgment — Page

8__ of

8

DEFENDANT: THOMAS HOEY, JR.
CASE NUMBER: 1: S6 11 CR 00337-003 (PKC)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

23 Lump sum payment of $
□
□

300.00

not later than
in accordance with □ C,

due immediately, balance due

□ D,

or
□ E, or

□ F below; or
□ C,

□ D, or

□ F below); or

B

□ Payment to begin immediately (may be combined with

C

over a period of
(e.g., weekly, monthly, quarterly) installments of $
□ Payment in equal
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., months or years), to commence

D

over a period of
□ Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
(e.g., 30 or 60 days) after release from imprisonment to a
(e.g., months or years), to commence
term of supervision; or

E

(e.g., 30 or 60 days) after release from
□ Payment during the term of supervised release will commence within
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

□ Special instructions regarding the payment of criminal monetary penalties:

i

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment ofcriminalmnonetery penalties is due during
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

□

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

□

The defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court cost(s):

□

The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

